No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

WILLIAM BRADNER, PETITIONER
v.

UNITED STATES OF AMERICA, RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

The petitioner asks leave to proceed in forma pauperis pursuant to Supreme
Court Rule 12.2.

The United States Code provides that when a Criminal Justice Attorney has
been appointed pursuant to 18 U.S.C. §3006A, and Petitioner “petitions for a writ of
certiorari, he may do so without prepayment of fees or costs or security therefor and
without filing the affidavit required by section 1915(a) of title 28.” 18 U.S.C.
§3006A(d)(7). As such, no affidavit is required to be filed in support of this Motion.

Petitioner has previously been granted leave to proceed in forma pauperis
before the United States Court of Appeals, Sixth Circuit. Because of his poverty,
the Sixth Circuit appointed the undersigned as Counsel pursuant to the Criminal
Justice Act. The undersigned Criminal Justice Act attorney desires to continue

representation of Petitioner in this matter, due to his appointment, and Petitioner’s
dire financial situation. However, because of his financial position, Petitioner is
unable to pay the costs of this case or to give security therefor.
WHEREFORE, Petitioner, William Bradner, asks this Court to grant this

Motion to Proceed in forma pauperis.

Respectfully Submitted,

 

23 Erlanger Road

Erlanger, Kentucky 41018

TELE: (859) 342-4500

EMAIL: sdjaeger@thejaegerfirm.com

Counsel for Petitioner
